                                                  OFFICE OF INSPECTOR GENERAL -
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         We received anonymous allegation that a ~rofessor'and Associate Director of a research center
         at a universitf, used NSF funds to develop and ship restricted technology. We coordinated our
         investigation with the appropriate law enforcement agencies3

         We focused our investigative efforts on expenditures to NSF grants.4 The other agencies focused
         on the whether the technology was restricted and did the shipments follow appropriate
         regulations and laws. Initial investigation found that former Graduate Students, who received
         salary and tuition payments from NSF, said that they worked on a product that was shipped to an
         overseas company. We also found that the Professor combined trips relating to the NSF funded
         student exchange program with meetings with the overseas company.

         The Professor was interviewed by the multi-agency investigative team and claimed that the
         students' work was beneficial to both the NSF Grant and the development of the product
         provided to the company, but the Professor mistakenly failed to mention the research in his
         reports to NSF. Regarding the NSF funded trips to China; the Professor stated that he combined
         his meetings with the cbmpany with the planned NSF trips. The Professor stated that after
         reviewing the trips, he should have split the funding for the trips between company and NSF


         It was determined that the overseas shipments did not violate the regulations but the university
         agreed to strengthen the internal controls on the shipment of technology to foreign countries.
         The university also removed the questionable travel, salary and tuition charge5 to the NSF grants
         and counseled the Professor for the errors that occurred in the handling of Federal Program
         Funds and returned funds.'

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
